                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A14040017                                                                           Page 1 ofl



                 We received an allegation that a post-doctoral fellow 1 was not able to access the research data
         records of a former post-doctoral fello~ in the PI's laboratory3 . Our review of the matter
         determined that the research studies of the PI and the former post-doctoral fellow were not NSF
         funded. We formd no nexus for investigation by this office. The complainant has contacted the
         appropriate rmiversity official4 about accessing past laboratory data records. Accordingly, this case
         is closed with no further action taken.




NSF OIG Form 2 (11/02)
